<html>
<title> - [H.A.S.C. No. 114-66] OUTSIDE VIEWS ON THE STRATEGY FOR IRAQ AND SYRIA</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 
                         [H.A.S.C. No. 114-66]

            OUTSIDE VIEWS ON THE STRATEGY FOR IRAQ AND SYRIA

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           NOVEMBER 18, 2015

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     






                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-821                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          




















                                     
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Fourteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
J. RANDY FORBES, Virginia            LORETTA SANCHEZ, California
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                NIKI TSONGAS, Massachusetts
BILL SHUSTER, Pennsylvania           JOHN GARAMENDI, California
K. MICHAEL CONAWAY, Texas            HENRY C. ``HANK'' JOHNSON, Jr., 
DOUG LAMBORN, Colorado                   Georgia
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            JOAQUIN CASTRO, Texas
JOHN FLEMING, Louisiana              TAMMY DUCKWORTH, Illinois
MIKE COFFMAN, Colorado               SCOTT H. PETERS, California
CHRISTOPHER P. GIBSON, New York      MARC A. VEASEY, Texas
VICKY HARTZLER, Missouri             TULSI GABBARD, Hawaii
JOSEPH J. HECK, Nevada               TIMOTHY J. WALZ, Minnesota
AUSTIN SCOTT, Georgia                BETO O'ROURKE, Texas
MO BROOKS, Alabama                   DONALD NORCROSS, New Jersey
RICHARD B. NUGENT, Florida           RUBEN GALLEGO, Arizona
PAUL COOK, California                MARK TAKAI, Hawaii
JIM BRIDENSTINE, Oklahoma            GWEN GRAHAM, Florida
BRAD R. WENSTRUP, Ohio               BRAD ASHFORD, Nebraska
JACKIE WALORSKI, Indiana             SETH MOULTON, Massachusetts
BRADLEY BYRNE, Alabama               PETE AGUILAR, California
SAM GRAVES, Missouri
RYAN K. ZINKE, Montana
ELISE M. STEFANIK, New York
MARTHA McSALLY, Arizona
STEPHEN KNIGHT, California
THOMAS MacARTHUR, New Jersey
STEVE RUSSELL, Oklahoma

                  Robert L. Simmons II, Staff Director
                 Alex Gallo, Professional Staff Member
                        Spencer Johnson, Counsel
                         Britton Burkett, Clerk
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     1
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Crocker, Ambassador Ryan C., Former Ambassador to Iraq and Syria.     4
McLaughlin, John E., Former Acting Director of Central 
  Intelligence...................................................     3

                                APPENDIX

Prepared Statements:

    Crocker, Ambassador Ryan C...................................    54
    McLaughlin, John E...........................................    43
    Smith, Hon. Adam.............................................    41

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Johnson..................................................    65
    
    
            OUTSIDE VIEWS ON THE STRATEGY FOR IRAQ AND SYRIA

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                      Washington, DC, Wednesday, November 18, 2015.
    The committee met, pursuant to call, at 1:26 p.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order. And I 
appreciate the patience of our witnesses and guests while we 
had a vote. But the good news is, now we should be 
uninterrupted for the rest of our hearing. The committee meets 
today to get some outside expert perspectives on the strategy 
moving forward against ISIS [Islamic State of Iraq and Syria] 
in Iraq and Syria. And members should know that this hearing 
will be complemented by some further roundtable discussions 
with some former military leaders, as well as a hearing with 
the Secretary of Defense and the Chairman of the Joint Chiefs 
scheduled for December 1. Of course, all of these hearings were 
scheduled before the Paris attacks, but they only add urgency, 
I think, to the subject before us.
    I think all of us probably agree that this problem has 
festered and gotten worse over time, so that easy solutions do 
not exist. At the same time, throwing up our hands and saying 
it is too hard is not really an option. I think most of the 
American people believe that the President's statements that 
this is the JV [junior varsity] team, or that the threat is 
contained, don't find those credible. And so I am hopeful that 
with a series of hearings and roundtables, we can help shed a 
little light on a better path forward to deal with this 
situation in all of its complexity.
    So let me yield to Mr. Smith for any comments he will make 
before I turn to our witnesses.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. I have a longer 
statement, which I will just submit for the record. But I think 
this hearing is perfectly appropriate to really think broadly 
about what is our strategy. And I think it is not just against 
ISIS, but all of the groups affiliated with that ideology, Al 
Qaeda, Al-Shabaab, Boko Haram, Ansar al-Sharia in Libya. This 
is an ideology that we need to figure out how to defeat. For a 
long time it was Al Qaeda. Gosh, 10 years ago, no such thing as 
Al Qaeda in Iraq or ISIS. Now they are the great threat. And I 
agree with the chairman, I think this is a very significant 
threat, precisely because they have the same willingness that 
Osama bin Laden had to reach out and try to attack Western 
targets wherever they can find them. This is in our vital 
national security interests to figure out how best to contain 
this. But I think the lesson that has been learned is the 
ability of the United States to go militarily into a Muslim 
country and pacify it, if you will, and force it into a 
different direction. And Ambassador Crocker is very familiar 
with those struggles and those difficulties.
    The issue isn't could we, in the short term, militarily 
defeat ISIS? Certainly. You know, we could, with our Western 
allies, have a force that could, you know, destroy them in the 
short term. But in the long term, do we create more of them? Do 
we then create a situation where we have even more of the 
Muslim world against us? How do we thread that needle? And I 
think that is the key. And what I want to hear most from our 
witnesses, how do we find allies in the Muslim, Sunni Muslim 
world in particular, since these groups are Sunni, and how do 
we assist them in defeating groups like ISIS and Al Qaeda, and 
convincing their populations that these are groups not to be 
supported and not to be joined?
    How, in essence, does the Muslim world, do places like Iraq 
and Syria, offer a better alternative going forward? And a big 
part of this is this part of the world has a massive youth 
bulge, huge youth population, and almost no jobs. Nothing for 
these people to do. That makes these sort of ideologies even 
more attractive.
    So a comprehensive solution is needed. I think we have two 
great witnesses here to offer us that perspective. And I look 
forward to their testimony. I thank the chairman for the 
hearing. With that, I yield back.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 41.]
    The Chairman. I thank the gentleman. Let me, again, express 
our appreciation to both our witnesses for being here. John 
McLaughlin, as members know, was the deputy director and then 
the acting director of the CIA [Central Intelligence Agency] 
during the crucial beginning time of this fight against 
terrorists, shortly after 9/11. He now teaches at Johns Hopkins 
School for Advanced International Studies.
    Ryan Crocker has been a Foreign Service Officer for 30-
something years, ambassador to a whole variety of countries, 
including Iraq and Syria, and is now the dean at the George 
Bush School down in College Station. So we are very grateful to 
both of you for being here. I think the ranking member is 
exactly right, we are looking for the broader strategic 
perspective on what we are facing.
    Without objection, your full written statements will be 
made part of the record. And I will turn to you first, Mr. 
McLaughlin, for any comments you would like to make.

  STATEMENT OF JOHN E. McLAUGHLIN, FORMER ACTING DIRECTOR OF 
                      CENTRAL INTELLIGENCE

    Mr. McLaughlin. Chairman Thornberry and members of the 
committee, I appreciate the opportunity to share my views 
today. I always enjoyed visiting this committee back when I 
worked at CIA for 30 years. And as a U.S. Army veteran with 
service in Vietnam, I understand the importance of the work you 
do. The United States confronts, in Syria and Iraq, the most 
complex set of national security problems I have ever seen, in 
a way, unprecedented even for the Middle East. At least six 
region-wide conflicts converge in these two countries: Persian 
versus Arab, Sunni versus Shia, modernizers versus 
traditionalists, terrorists versus regimes, terrorists versus 
terrorists, and great powers versus great powers. You know, at 
the center of this is the most vicious and capable terrorist 
group I have ever seen.
    My last 4 years in government, as the chairman alluded, 
were focused on the battle against Al Qaeda in the post-9/11 
period. The battle against ISIL [Islamic State of Iraq and the 
Levant] will be harder because ISIL has at least six strengths 
that Al Qaeda never had. First, it has an ambitious strategy 
focused on establishing concentric circles of influence and 
operational activity well beyond its Syrian base. Second, it 
possesses territory extensive enough to credibly claim a 
caliphate. Third, it has money in the hundreds of millions of 
dollars that buys expertise, loyalty, weapons, training, and 
influence. Fourth, it has barely impeded access to the West by 
virtue of the 4,500 Western passport holders in its ranks. 
Fifth, a narrative far more powerful than Al Qaeda's, promising 
jobs, families, fellowship, and power to people to whom it 
appeals. Its recruiting emphasizes these things, not the 
brutality we see on television.
    Finally, unlike Al Qaeda, it has won grudging acquiescence 
in many areas it controls by providing rudimentary public 
services. So any effort to form a counter-ISIL strategy and 
settle the Syrian conflict has to begin with an appreciation of 
the realities we face.
    First, time matters. Timetables slip for offensives to 
reclaim Mosul or Ramadi or to train fighters. Meanwhile, 1,000 
fighters a month join ISIL. Its roots grow deeper. Second, the 
interests of major powers have to be reconciled. A Syrian 
settlement is unlikely without some Russian, Iranian, and 
perhaps Saudi acquiescence or cooperation. Third, progress will 
be impossible without meeting the grievances of abused and 
alienated Sunni populations, which constitutes 70 percent of 
Syria, about 20 percent of Iraq.
    Fourth, substantial territory must be reclaimed from ISIL 
to erode the image of invulnerability and its claim to a 
caliphate. And fifth, air power is important, but probably 
won't be enough.
    So in light of those realities, what are the elements of a 
successful strategy? First, be clear about priorities. Trying 
to get rid of Assad and ISIL at the same time led us into what 
I would call a catch-22 cul-de-sac. Hurting one invariably 
helps the other. Time to say destroying ISIL comes first, and 
we will do the necessary to achieve that. Now, in making these 
recommendations, I want to be clear, I don't have access to the 
data and the capabilities of the Joint Staff. So many of the 
things I am about to say here are aspirational. They would need 
careful planning. And I don't minimize the difficulty.
    But second, we can, more robustly, arm forces that have 
shown success against ISIL, such as the Kurds in Syria and 
Iraq. Third, increase the intensity of the air campaign and the 
number of U.S. special operators in theater, empowering them to 
go forward with trusted forces to advise and assist with 
targeting, something we did in the early days of the Afghan 
war. Fourth, move, finally, to establish a safe zone in Syria 
for fighters and refugees, as General Petraeus has suggested, 
defended by coalition aircraft with U.S. advisers present, and 
with a warning to Assad to stay out.
    Fifth, and most challenging, lead in the formation of a 
multinational force that could bring the air and ground 
components of our strategy into better balance. And finally, in 
the Vienna talks on the political solution for Syria currently 
taking place among 19 nations, seek traction on what must be 
the single element of consensus among them that none can see 
benefit in having another failed state, another Libya, if you 
will, in the heart of the Middle East.
    Finally, let me conclude, Mr. Chairman, by saying it is 
impossible to overestimate the importance of vigorous 
engagement with Baghdad for a government more inclusive of 
Sunnis and all Iraqi elements. Otherwise, Iraq can neither 
survive as a unitary state nor field an effective fighting 
force. Thank you, Mr. Chairman.
    [The prepared statement of Mr. McLaughlin can be found in 
the Appendix on page 43.]
    The Chairman. Thank you, sir. Mr. Ambassador.

 STATEMENT OF AMBASSADOR RYAN C. CROCKER, FORMER AMBASSADOR TO 
                         IRAQ AND SYRIA

    Ambassador Crocker. Thank you, Mr. Chairman, Ranking Member 
Smith, members of the committee. It is a privilege to be before 
you today on issues of such great consequence. It has been a 
very grim 3 weeks. The downing of the Russian airliner, the 
bombings in Beirut, the horrific attacks in Paris, make it 
clear to all of us the enormous threat that the Islamic State 
poses. These attacks come against a backdrop of chaos and 
violence unprecedented in the modern history of the Middle 
East, which I date back to the end of World War I.
    Three states have failed completely: Syria, Libya, and 
Yemen. I would argue that Iraq is very, very close. And with 
the failure of states, we have seen the rise of nonstate 
actors, most prominently Islamic State, but also Al Qaeda, 
Iranian-backed Shia militias in Iraq, and a host of others. The 
stability of the entire region is at risk, as are some core 
U.S. interests, the security of our friends in the region, 
including Israel, the flow of oil to our allies around the 
world, and our own security. As we saw so tragically in Paris 
and in Beirut, as my friend and former wingman Dave Petraeus 
said, what happens in the Middle East does not stay in the 
Middle East.
    The emergence of Islamic State and other nonstate actors 
has its roots in an even larger problem, the pervasive failure 
of governance in the region. The history of the modern Middle 
East is a history of failed ``isms'': colonialism, monarchism, 
Arab nationalism, Arab socialism, communism, authoritarianism. 
We can hope Islamic State's twisted form of Islamism is the 
next to fail, but hope is a poor policy. John McLaughlin said 
something very important. Islamic State gets this. They know it 
is not just about the bloody sword, it is about picking up the 
garbage. Wherever they move in, they attempt to establish 
services, a very brutal but predictable form of justice, and 
above all, to demonstrate that unlike the regimes that came 
before them in Syria and Iraq, they are not personally corrupt.
    If you want to look for an indicator on the longevity of 
ISIS or Islamic State, look to how they govern in the areas 
they control. I say this to situate recent developments in a 
larger context, and to underscore how enormously complex these 
problems are. If there are any fixes at all, they will not be 
quick. There are things that we can and should do, I believe, 
short of deploying ground forces. I agree with John McLaughlin, 
we need to ramp up our air campaign significantly, to actually 
degrade Islamic State.
    We need to go after their resources. We need to go after 
their money, as we did with Al Qaeda in Iraq when I was there. 
The targeting of their oil infrastructure, I think, is an 
important step in this direction. I have argued for some time 
that we need to establish no-fly zones, covering safe zones, as 
John McLaughlin and Dave Petraeus have both said. This is 
important as a humanitarian step to stop the wholesale 
slaughter by the Assad regime of Syria's own citizens. It is 
also important politically at two levels. First, it will weaken 
the Assad regime. It will not bring it down, but it will weaken 
it. And it might cause Assad and his backers, Syria and 
Russia--I am sorry, Iran and Russia, to recalculate and perhaps 
move them toward a negotiating posture that would actually make 
the only solution that is possible come into focus, which is a 
political settlement.
    The second point for behind a no-fly zone is it would be a 
signal to the region, particularly to Syria's Sunnis, that all 
the bombs are not falling on Sunni heads, even if they are 
ISIS. So this is going to have to be a very carefully 
calculated process. We have got to fight a Sunni group that is 
fighting us. We also have to signal that we understand and are 
taking steps to protect a Sunni population from a regime that 
is killing so many of them.
    Implicit in this is my belief that Russia and the Iranians 
are absolutely not our allies. Any perception of U.S. 
association with Russia or Iran in a fight against Islamic 
State is going to turn the Sunni world in Syria and outside of 
it even further against us. As John McLaughlin says, there is a 
broader conflict here, hot and somewhat a cold war. Iran and 
Saudi Arabia are the two principal protagonists: The Persians, 
the Shia; the Arabs and the Sunnis. Russia and Iran are 
squarely on one side of that divide. We have to be careful we 
are not perceived as joining them there.
    I have argued for a substantial increase in Syrian refugee 
admission after thorough vetting. This blunts the Islamic State 
narrative that we are the enemies of Arabs and Muslims, and it 
increases our leverage with others who can do more, either on 
resettlement or financially. And it is a way, Congressman 
Smith, that I believe we can start to pull Arab and Muslim 
states more toward us, to have that serious conversation we so 
badly need to have about what the future of the area is as we 
look ahead.
    A couple of other points. John Allen, one of the greatest 
officers, in my view, ever to wear a military uniform, is 
stepping down as our envoy to the anti-ISIS coalition. I would 
urge that the next envoy be a Presidential envoy, not an envoy 
of the Secretary of State. If we want to say that we are 
serious about this, the weight of the White House needs to be 
behind our point person in this struggle. Dave Petraeus and I 
have argued that there are other steps that we can take. Move 
our military headquarters from Kuwait to Baghdad. If we are 
fighting a war, we need to be on the battlefield. And in terms 
of civil-military cooperation, as I saw with Dave Petraeus, Ray 
Odierno, and John Allen, when my military counterpart was just 
across the hall, it certainly made the necessary unity of 
effort and objective that much easier.
    Mr. Chairman, the center of gravity for Islamic State is in 
Iraq. That is where it emerged, and that is where its key 
leaders are from. It grew in the sectarian canyons that were 
created as Iraqi Sunnis were increasingly alienated from the 
sectarian Shia government influenced by Iran. So John 
McLaughlin and I would, I think, agree completely, the primary 
focus of our efforts has to be political, and it has to be 
getting at some of these root issues of a sense of 
disenfranchisement and isolation of Sunnis within their own 
states. U.S. reengagement, at a sustained and high level, can 
make a difference in Iraq. I learned through two long hard 
years that different Iraqi factions cannot compromise among 
each other. They simply cannot because of the legacy of literal 
blood between them.
    But what they can do is give us something that we can then 
take to another faction and leader and start to put together 
transactions that they all want, or many of them want, that 
they can't do on their own. We are the indispensable actor. We 
played that role during my time in Iraq, 2007 to 2009. I urge 
that we play it again. I am calling, therefore, not for the 
deployment of the 101st Airborne, but for the deployment of the 
Secretary of State to go out to Baghdad and to sit there for a 
week or 10 days, banging heads together, seeing what 
compromises can be forged. The Iranians are doing it all the 
time. We need to do it as well.
    So U.S. leadership cannot solve the problems of the Middle 
East or anything close to it, but it can make a difference. 
Most crucially, it can make a difference in preserving Iraq and 
Syria as unitary states. I know this is an issue of concern to 
this committee. It is my view that de facto partitioning favors 
only Islamic State and Iran and its proxies. A division into a 
Kurdistan, a jihadistan controlled by Islamic State, and a 
Shiastan dominated by Iran in Iraq may be to the interests of 
those parties; it is not to the U.S. interests. Thank you, Mr. 
Chairman.
    [The prepared statement of Ambassador Crocker can be found 
in the Appendix on page 54.]
    The Chairman. Thank you. Lots of interesting comments. I 
would like to follow up, but I will try to restrain myself to 
just a couple questions. I think everybody acknowledges that 
the military alone cannot solve the problem of Iraq, Syria, or 
ISIS. But I would appreciate it if each of you could briefly 
comment on the role you think military action could and should 
play. Mr. McLaughlin mentioned that time slippage is a factor. 
When we say we are going to do something, we don't take the 
town--or the town is not taken, then that reduces credibility. 
I know Dr. Kissinger, among others, have argued that 
ineffectual military action actually helps ISIS, because they 
are seen to withstand bombing, or whatever it is that we do, 
and it strengthens their prestige. So could each of you briefly 
comment on the role the military action, not just by us, but 
military action should play in this conflict?
    Mr. McLaughlin. Well, again, Mr. Chairman, with the caveat 
that I am not sitting in the Joint Chiefs, and therefore, don't 
have access to--basically, what I am trying to say is at the 
end of the day, any military action you plan is difficult, 
complicated, and has to be carefully thought through. With that 
caveat--so I don't want to seem breezy about this. With that 
caveat, I guess my thought is you cannot settle these problems 
militarily, but you cannot settle them without a significant 
military component, in my judgment. We are now at the point of 
weighing what should that component be? It may be that air 
power can do a lot of the job if it is precise, if it is 
effective. But it seems to me that the military piece of this 
is somewhat out of balance between air and ground. So I can't, 
without a lot of time and data, make an estimate of what 
numbers we are talking about here, or what the composition of a 
force should be. But even if, for example, you were to take 
through air power to destroy ISIL in one of these towns, let's 
say Mosul or Ramadi or Fallujah, someone still has to go into 
that town on the ground, and see what is there and take it over 
and organize it. And that could be Iraqis, but probably they 
can't do it themselves.
    And in addition to that, you know, I just respect the 
judgment of a lot of military people who say, and it accords 
with my own instincts here, that at some point, you have got to 
meet these people on the ground with a larger force than we are 
currently meeting them. Now, the Kurds in the north, the YPG 
[Kurdish People's Protection Units] inside Syria, is doing very 
well with our assistance. The Iraqi Kurds, of course, have 
retaken Sinjar with our assistance. Those are good signs. I 
don't think they are enough. And I don't think that the pace of 
this campaign is such that time will permit us to go with a 
slow strangulation policy if there is a prospect of more 
attacks like we have seen in Paris, Turkey, Lebanon, and 
elsewhere, and particularly if they are intending to come here.
    One final comment on this. Maybe at the center of the 
military component here is the effectiveness of Iraq's forces. 
I mean, the ambassador says, and I agree, that in many ways 
Iraq is the center of gravity here even though ISIL's 
headquarters are in Syria. But the Iraqi forces have to take 
back these towns, perhaps with our assistance. Unless there is 
a political reformation, if you will, in Iraq that convinces 
Sunnis they are part of this country, those Iraqi forces, to 
the extent they are effective, will be effective largely 
through Shiite militias, backed by and augmented by Iran.
    So that is not a good outcome. Essentially, we are yielding 
this part of the Middle East to Iran, with bad consequences. So 
that is another military piece of this that happens to be very 
closely woven with the political part. So bottom line in all of 
this, military component is important. I think it needs to be 
increased in terms of ground forces. The intensity of the air 
campaign needs to be looked at. And the Iraqi piece of this 
needs to take priority, starting at the political level.
    Ambassador Crocker. I would agree with John McLaughlin that 
there is no military solution to this problem. However, 
military action can establish conditions and a context that are 
more favorable to a political settlement eventually than the 
circumstances now. You know, that is the logic behind my 
suggestion that we ramp up the air campaign to significantly 
degrade ISIS. We can't defeat them from the air. But I do 
believe we can degrade them and should. And at the same time, 
degrading, if you will, the Assad regime's ability to murder 
its own citizens. The establishment of safe zones under a no-
fly zone could do that. It could also bring buy-in at a level 
we haven't had before from both Turkey in the north, that has 
long advocated for this, and Jordan in the south. A safe zone 
would have to be secured. They would be the ones to secure it.
    But we have to show we are serious. If we are prepared to 
say we will enforce the no-fly zone, then we can turn to them 
and say, and you have got to do your bit on the ground. And 
then we see where we are if we take those two steps. That could 
change the climate. It will certainly put us in a position to 
be better able to make the judgment about what other steps may 
be necessary than we are right now. So that is where I would 
start.
    In Iraq, I cannot underscore the point strongly enough that 
this isn't about reclaiming territory from Islamic State so 
much as it is about seeing whether some basic political accords 
are possible that will make Iraqi Sunnis feel, once again, that 
they are part of this state and have a future in it.
    I had a conversation with the speaker of the Iraqi 
Parliament, a Sunni. As his position indicates, he has bought 
into the new order in Iraq, unlike many other Sunnis. But he 
said that anyone who expects Iraqi Sunnis to stand against ISIS 
is first going to have to persuade them that life will be 
better under an Iraqi Government than it is under the Islamic 
State now. And given the sectarian nature of the Iraqi 
Government now, that is a hard case to make.
    So that fundamental political dynamic has to change. It 
isn't going to happen by itself. It can only happen if the U.S. 
is directly engaged as a catalyst. Because right now, it isn't 
Iraqi Security Forces who are in the vanguard in many of these 
clashes, it is Shia militias. And for Iraqi Sunnis, that is the 
ultimate nightmare. And there is another issue, the Kurds. It 
is absolutely the case that they have fought hard and well in 
both northern Syria and in northern Iraq. But the Kurds are not 
the answer to a strategy to liberate Sunni Arab areas.
    In many of those areas, the Kurds are viewed with just 
about as much suspicion as the sectarian Baghdad government is. 
So we have got to be very careful how far and where we go with 
the Kurds. So again, there are military steps we can take that 
can change the political context. I can see that more clearly 
in Syria. In Iraq, if we are going to significantly ramp up our 
effort, we have to look at what force is going to hold. Because 
if it is a force that is perceived by Sunnis to be Shia-
dominated and Iran-oriented, we might be better off never 
having cleared it in the first place.
    The Chairman. No one can speak with greater authority about 
the internal political dynamics of Iraq than you. Thank you. 
Mr. Smith.
    Mr. Smith. Thank you. I have a couple other questions, but 
just following up on that point. The root cause of the problem 
here is we don't have a legitimate Sunni force in Syria or Iraq 
that--well, that exists, basically. You mentioned the problem 
with the Kurds, you mentioned the problem with the Iraqi 
Government. And when you are going to get into the Sunni 
portions of Syria and Iraq, you are going to need a legitimate 
Sunni force to hold it.
    And you listed all the problems with the existing forces. I 
would merely submit that 10,000, 20,000, 30,000 U.S. troops 
down on the ground going into Ramadi or going into Fallujah or 
any of these towns doesn't change that dynamic. And as hard as 
it would be for a Shia militia to hold a Sunni town or a 
Kurdish-backed force to hold a Sunni town, I would submit it 
would be even harder for a Western force to hold a Muslim town. 
And that is the frustration that we find ourselves in. But 
leaping into that mess and simply making it worse at the cost 
of greater lives and more money is something I would be very, 
very cautious about doing.
    Now, the struggle is, like I said, where are the Sunni--
forget the word moderate, where are the anti-ISIL Sunnis who 
could actually hold? That is what we have got to find. That is 
where we have got to get to. That is not going to happen 
tomorrow or next month or even next year. That is going to take 
a lot of time. You were there for the Sunni Awakening, largely 
because of Al Qaeda's overstepping its bounds, and also, a lot 
of very, very good work by the Marine Corps in terms of 
building relationships with the tribes. I mean that is the kind 
of thing that needs to happen. A U.S.-led force is going to be 
no more welcome in these Muslim towns than the Kurds and the 
Shia, in my opinion.
    Two issues I want to raise. One is on the refugee issue. 
And aren't we playing right into ISIS's hands by saying, you 
know, keep the refugees out, we don't trust them? When, in 
fact, I think what is interesting is if you look at what 
actually happened in Paris, there is not really any evidence 
that any of the people who perpetrated those attacks were 
refugees. It is fascinating they found this passport, which, by 
the way, there is a duplicate of that passport that was forged 
by somebody else someplace else. So it appears not even to be a 
legitimate passport. And also, you know, find it interesting 
that, you know, a suicide bomber would think to take his 
passport with him on the mission. It seems like a rather odd 
choice. And it seems likely that ISIS, which has been trying to 
drum up opposition to these refugees, could easily have planted 
it. And certainly it is to their benefit if we are seen as 
hostile to refugees. I know you have written about this, 
Ambassador Crocker. I have one other line of questioning. If 
you could quickly hit on that and how it affects this overall 
fight if we appear unwilling to accept Syrian refugees?
    Ambassador Crocker. Thank you, Congressman. As I have 
stated on a number of occasions going back some time, I think 
it is important for the United States to be able to demonstrate 
to Sunni Muslims that this is not a confrontation between the 
West, led by us, and Sunni Islam. It is a confrontation between 
all of the civilized world, including the vast majority of 
Sunni Arabs, and a hateful terrorist group that has terrorized 
and killed far more Sunni Arabs than it has any other group. I 
think it is important to stake that out to kind of defeat the 
persistent Islamic State narrative that this is the West, the 
Crusaders against the true faith. We need to take that away 
from them. This is an important way to do it. Now, nothing is 
more important than the security of our country.
    Mr. Smith. Absolutely.
    Ambassador Crocker. So this has to be done in a way that 
gives us confidence that anyone trying to get to this country 
for malign purposes can be screened out. There are no absolute 
guarantees.
    Mr. Smith. No. And there is no absolute guarantees if you 
forget refugees. People come to this country for any reason for 
that matter, I don't know if we screen them--or domestic. I 
mean, as I pointed out, in Paris, it was Belgian and French 
citizens, born there, who were radicalized who moved in this 
direction. So we have to be very, very diligent to protect our 
country, not just from refugees, but from, you know, gosh, our 
own citizens, or anybody who is here for any reason to make 
sure that they are not being radicalized.
    That happens with regrettable frequency, and our jails are 
full of homegrown radicals that fortunately we were able to 
catch in most instances. I want to ask one other question about 
this whole debate about whether or not--about who we are 
fighting. And this came up during the Bush administration, 
actually, that there was a reluctance to use any Islam, 
Islamist, Islamic, anything that sort of gave our enemy the 
title of being affiliated with the Muslim religion. Because we 
do not, as you very articulately stated, want ISIS to be able 
to claim that they are defending the Muslim world against 
Western aggression. And that is the reason why both the Bush 
administration and the Obama administration have gone to great 
lengths to not give ISIS, to not say that they are Islamic 
terrorists or Islamic radicals or whatever, that they are 
violent extremists.
    However, I think that looking at the broader issue, aside 
from just ISIS or Al Qaeda, the idea of whether or not we are 
at war with radical Islam, you know, there are a lot of 
Salafists and Wahhabis and others who right now don't support 
violence against the West or violence against anybody, but I 
still think their ideology is a big problem. And they wind up 
funding those people.
    So how do we work with allies like Saudi Arabia and 
Pakistan and others who have, at the same time, given sympathy 
to the very ideology that threatens us, even if the ideology 
they support tries and frequently fails to stop short of the 
violence element? How should we handle the issue of who we are 
fighting and whether or not we bring religion into it?
    Mr. McLaughlin. To me, I think you can do this without 
bringing religion into it. I think the whole debate over what 
we label these people is overblown and gets in the way. I mean, 
we have all said it, it is absolutely true, Islam is not a 
violent religion. There is a portion of Islam that is perverted 
by these people and that works with social conditions that are 
conducive to recruiting alienated young people, end of story. 
It is the reality. We shouldn't really spend a lot of time on 
what we want to label it, it seems to me. It is a perverted 
sect of Islam that causes this, end of story. And we went 
through this at the time of 9/11, because prior to 9/11, we had 
trouble getting the kind of cooperation that we wanted from, 
for example, Saudi Arabia. After 9/11, we still struggled with 
it. About 2003, there were compound bombings in Saudi Arabia 
and----
    Mr. Smith. Until it hit home----
    Mr. McLaughlin. Until it hit home. But I must say, to give 
the Saudis their credit, once it hit home, at least at an 
official level in terms of our dealings with the government, 
people like Muhammad bin Nayef and others who were and still 
are in charge of counterterrorism, they swiveled, and they were 
good partners, very good partners. And they have since helped 
in a number of ways, including warning us on a couple of 
occasions. Recall the incident in which they warned us of a--
according to the press--warned us of a bomb that was being 
placed on a FedEx plane and so forth.
    So they are pretty good partners in this. But, you are 
absolutely right, we are all paying the price, and they are 
paying the price for policies that they and others followed 
years ago, which are having now unintended consequences. That 
is the reality of it.
    Mr. Smith. I want to let other people get in here. I will 
just say I don't believe that those policies have been 
completely abandoned by that part of the world. It is not a 
matter of years ago. I think they still are too, too open to a 
more radical interpretation of their religion that creates a 
larger problem. And that is something we need to work with our 
allies to confront. With that, I will yield back. Thank you, 
Mr. Chairman.
    The Chairman. Thank you. Mr. Forbes.
    Mr. Forbes. Mr. Chairman, thank you for holding the 
hearing. Gentlemen, thank you for your service to our country 
and for being willing to help us today. The two phrases that I 
picked out that you indicated, one was that the U.S. was an 
indispensable actor, if I understood that correctly. And the 
second one was that Iraq was the center of gravity for ISIS. As 
we look at the realization that a military component cannot, in 
and of itself, settle this problem, we all know, and I think 
all of us have always known you need the political and the 
economic and diplomatic. But you have also indicated that you 
cannot settle it without a significant military component. So 
that we can make sure we have learned from our mistakes and 
don't commit them going forward, what was the impact of not 
having a significant military component in Iraq in terms of 
allowing the strengthening of ISIS?
    Ambassador Crocker. An important question, Congressman. In 
2011, of course, we withdrew all of our military forces from 
Iraq. But in my view, that was not the most significant 
withdrawal. Really in 2011, we also pulled back from serious, 
sustained political engagement with Iraqi political leaders. 
You can argue we shouldn't have to do this, shouldn't be in the 
middle of somebody else's internal affairs, but it is a hard 
truth that the Iraqi political system will not function in any 
positive manner unless there is someone in the middle between 
and among the different factions.
    So it wasn't the withdrawal of U.S. combat power that I 
think set us on such a grim road from 2011 until today, so much 
as it was a withdrawal of U.S. political engagement. And that 
is why I have urged, for some time, and I am sure Secretary 
Kerry wonders what he ever did to me, but I would like to see 
him out there, backed up by the President, with a series of 
phone calls, not just to the prime minister, but to political 
leaders of every faction to try to get them to the point where 
they can pass, for example, national guard legislation, which 
has been stalled in parliament now for months. That would 
permit provinces to raise their own national guards, which 
would be paid and equipped by the central government, but much 
like our own National Guard system, would be under the 
authority of a provincial governor. That is how you get your 
hold force for places like Mosul and Ramadi. But it can only 
happen if the politics work. The politics manifestly will not 
work.
    Mr. Forbes. Would it be unfair to say that it would be 
difficult to make the politics work, even had we had that kind 
of engagement, if we didn't have at least a significant 
military component to buttress that politics?
    Ambassador Crocker. It is very hard to know, sir. Yes, I 
argued for and would like to have seen a long-term military 
presence, precisely for the reasons I think you are suggesting, 
not so much for the combat power they would bring, but as an 
indication that we are serious about what goes on in Iraq, we 
have got our men and women in this game in harm's way. You 
better pay attention.
    Mr. Forbes. Can you give us a snapshot of what 2011 looked 
like with ISIS then compared to today?
    Ambassador Crocker. I would have to go back 2 years further 
to 2009, because that was when I left Iraq. Through a sustained 
civil-military, multi-agency effort, we had beaten back Al 
Qaeda pretty soundly. But even with the surge, we couldn't 
quite eliminate them. There were little pockets in Mosul, up 
the river valley to the Syrian border. We could never quite get 
at it. Or if we did get it, they would recreate. And this was 
because, in spite of the progress that was made, lingering 
sectarian divisions in the country. Well, those divisions 
widened into canyons after 2011. And that is what we are 
dealing with today.
    Mr. Forbes. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you. Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman. And thank you both for 
being here. Good to see you, Mr. Ambassador. I wanted to follow 
up briefly with the discussion that you had earlier, because we 
know that the issue of refugees has also morphed into how we 
fight ISIS right now. And so, I wanted to--just speaking to the 
narrative if we were to move in a fairly strong push to push 
back refugees, whether it is seen as incremental by us, 
perhaps, but not necessarily interpreted that way elsewhere, 
how do you see that assisting ISIS, actually, if we were to do 
that?
    Ambassador Crocker. It reinforces their narrative that the 
Islamic State is the only force that will defend the faith and 
defend the believers in the faith, but that the West are the 
successors of the Crusaders, they are fundamentally the enemies 
of all right-thinking Muslims. So it is in that sense that I 
think it can feed that narrative. It was very interesting when 
Angela Merkel, when she was asked this, I think in September, 
when she took a public position basically saying refugees, 
Syrian refugees are welcome in Germany.
    Well, my colleagues tell me that ISIS kind of got really 
spun up over that, and on their social media saying it is all a 
plot. They don't mean it. They are just trying to lure you in 
so they can destroy you later once you have surrendered 
yourself to this Crusader government. It suggests that they saw 
that as a threat. So, you know, that would be my thought on 
this. Am I laying this out there as if we do, they will? No, I 
can't say that for certain. I think it is, though, an issue we 
should take into account as we consider this very serious 
problem.
    Mrs. Davis. And Mr. Ambassador, you actually identified a 
fairly large number of refugees to make the point that, in 
fact, we are not turning our back on those who are fleeing 
ISIS. Where did you come up with that number? Why would that be 
something to propose?
    Ambassador Crocker. It is just that, it is a number. I sit 
on the board of Mercy Corps International. Mercy Corps, along 
with its companion organizations, you know, developed that 
number with no more science than I did, basically. A number big 
enough to say we are serious. You know, 100,000 would still be 
symbolic given the magnitude of these flows. I mean there are a 
million Syrian refugees in Lebanon right now, or over, in a 
country of 4 million people. So even if we went up to 100,000, 
in the face of the biggest refugee crisis since World War II, 
it is a gesture, but an important one. And it would establish 
us as being able to lead an international response to a global 
problem, which we are not doing now. We need to do it. This is 
not a European crisis, it is not a Middle Eastern crisis, it is 
a global crisis, and it is our crisis. We need to be in this 
fight as well as other ones, in my view.
    Mrs. Davis. Thank you. Mr. McLaughlin, do you concur 
generally with that point of view?
    Mr. McLaughlin. I do. I do concur. I think the other 
message it sends that ISIS would not like is you are welcome 
here. ISIS would like you to think you are welcome only in 
their caliphate.
    Mrs. Davis. Thank you. One of the other issues that we 
grapple with is we are not very patient when it comes to 
strategies. And one of the things you also point out is 
overreacting, and how really counter that is to what we are 
actually trying to achieve. So I wonder if you could just speak 
to that very briefly. You mentioned several elements of that, a 
no-fly zone that could reshape the context more favorably, not 
necessarily from the air, but in other contexts. What do you 
think is the single most important thing that we could do that 
sort of helps people to understand it is a patient move, but it 
is also one that makes a difference?
    Ambassador Crocker. That is a great point, Congresswoman. 
In my long experience in the Middle East, I came to understand 
painfully that our allies, from Pakistan to North Africa, have 
come to fear our impatience. We are here today in a big way and 
we are gone tomorrow. And our adversaries have come to count on 
it. So it is a great way to frame it. What we really need to do 
is establish, in the eyes of allies and adversaries both, that 
we are engaged and we are engaged for the long term. These are 
our interests as well as the region's. We are going to be 
involved. We are not going to throw up our hands and go home.
    So that needs to be--in any step we take going forward, 
that has to be the message we articulate, that this is part of 
U.S. engagement in the region for the long term. And we need to 
do that, obviously, in concert with regional powers and with 
our allies around the world.
    Mrs. Davis. Thank you. Thank you, Mr. Chairman.
    The Chairman. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman. And Director 
McLaughlin, thank you for being here. Ambassador Crocker, thank 
you. And I have had the extraordinary opportunity to visit, 
Ambassador Crocker, you in Baghdad, also in Kabul, and to visit 
with you around the Middle East. And every time I have been 
there, I have seen your great appreciation of the citizens of 
those countries. In particular, I was there for the earthquake 
relief in Muzaffarabad in Pakistan. It is very clear that you 
are representing American interests, but it is on behalf of the 
people in the countries that you were serving in. I also share 
very much the point that you just made, and that is, that we 
need to have a consistency, we need to have a long-term 
approach. And that is why there are two quotes that come to 
mind to me that the American people need to know. And that is 
that President Bush, on July 12, George W. Bush, on July 12, 
2007, quote, ``To begin withdrawing before our commanders tell 
us that we are ready would be dangerous for Iraq, for the 
region, and for the United States. It would mean surrendering 
the future of Iraq to Al Qaeda. It would mean we would be 
risking mass killings on a horrific scale. It would mean we 
would allow the terrorists to establish a safe haven in Iraq to 
replace the one they lost in Afghanistan,'' end of quote.
    And then President Barack Obama on December 14, 2011, he 
claimed and announced, quote, ``Everything that American troops 
have done in Iraq, all the fighting and all the dying, the 
bleeding and the building, and the training and the partnering, 
all of this has led to this moment of success. We are leaving 
behind a sovereign, stable, and self-reliant Iraq,'' end of 
quote.
    It bothers me that there is simply not--that proves your 
point of a lack of consistency. In line with that, what do you 
see the political difficulties in Iraq of Prime Minister Abadi, 
what he is facing? And what role does the former Prime Minister 
Maliki play in progress, or lack of progress, in the country?
    Ambassador Crocker. Thank you, Congressman. Yes, we recall 
we first met a decade ago in Islamabad, and then later in Kabul 
and in Baghdad. You go to only the best places.
    Mr. Wilson. You are the great public servant. Thank you.
    Ambassador Crocker. I believe that Prime Minister Abadi, 
who came to office at the height of the Islamic State storm 
into Iraq, understands what needs to be done and wants to do 
it, wants to take the steps that will bring the Sunni community 
into Iraqi society and the Iraqi state. But he is in a 
dangerously weak position. The rise of the extremist Shia 
militias, and these are, if anything, as evil as Islamic State. 
They are commanded in two cases by individuals who kidnapped 
and murdered U.S. service members in Iraq. They just didn't do 
a video of it. They are now in command positions.
    Does Prime Minister Abadi like it? Absolutely not. Can he 
do anything about it? No, he really can't. Again, which is why 
I think our engagement is so important. The Iranians are 
running the show right now for all major purposes in Iraq. They 
do not have a stable unitary Iraq as their goal. They have the 
opposite. They would like to see its permanent division, 
because that would give them the ultimate victory in the Iran-
Iraq war that eluded them in 1988. ISIS is not the strategic 
threat to Iran in Iranian eyes, it is Iraq. Because Iraq almost 
overran them in 1980. And a vicious ground war took up the next 
8 years. So they want a divided Iraq. That is in their 
interest. It isn't in ours. Prime Minister Abadi is not in a 
position to push back against them. Our sustained engagement 
might make a difference.
    Mr. Wilson. Thank you very much. And my time is up. 
Director McLaughlin, you had indicated, too, about including 
the Sunnis in the regime. Thank you very much.
    The Chairman. Thank you. Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman. I appreciate very 
much the thoughtful testimony you are both giving today. And to 
think over and over again you reinforce the complexity of the 
challenge that we face. But we all know that, bottom line, we 
do have a fundamental obligation in this very complex 
environment to best protect our country and be sure that we 
keep this country and our people safe. And given the dynamics 
of the Middle East, it does raise a lot of questions. I 
appreciate, Ambassador Crocker, that you have a lot of 
confidence in our Secretary Kerry, that in your testimony, you 
have suggested that he should become more engaged in Baghdad, 
that we as a country, through him, have an important role to 
play in bridging some of the divides between the different 
elements of the fight. But much of his attention is now turned 
to Russia. And I am curious as to your thoughts, both of your 
thoughts, really, as to whether or not Russia is changing its 
calculations at all given the downing of their jet and their 
seeming openness, at least through Mr. Lavrov, to engage in 
some way with Secretary Kerry, what you see as the 
possibilities there.
    You suggested, I think, Ambassador Crocker, we have to be 
very wary that what they seek is something quite different. But 
I would be curious as to your thoughts. Is there a diplomatic 
option here, at least in the context of Syria, that at least 
might slow the outflow and the humanitarian crisis that we are 
witnessing?
    Mr. McLaughlin. Well, one thing I learned about Russia over 
my career is, the Russians will follow their own interests. So 
we always have to ask what are their interests in all of this? 
They approach this rather rationally and unemotionally.
    And in this case, I think Putin got involved in the Middle 
East for a number of very hardheaded reasons. One, he wanted to 
show the world that Russia is still a great power. Two, he has 
accomplished one of his goals, I think, which is to distract us 
somewhat from Ukraine. It would be very hard now to really 
muster a consensus on Ukraine in the aftermath of what we are 
seeing. Number three--here is an interesting point--he actually 
has, in some ways, as big a problem with ISIL as we do, maybe 
bigger.
    The head of the Russian security service, their internal 
service, FSB, said that there are about 2,400 Russians fighting 
with ISIS. Most of them probably come from the part of Russia 
called the Caucasus, places like Chechnya, Kabardino-Balkaria, 
and so forth. And we saw a couple of people socialized in that 
environment show up at the Boston bombing, if you recall.
    So he has to worry that people fighting for ISIS in Syria 
will go back to a part of Russia where he, in his early days, 
fought a war to keep Chechnya within the Russian Federation. So 
that is another interest he has.
    Now, whether this inclines him to be our partner in all of 
this is hard to gauge, but I think--here is the way I would 
think about it--maybe Ambassador Crocker and I may differ a 
little on this--I think that we may have to work with him, if 
he is willing, in a limited sense, limited time-wise and issue-
wise, in much the way that--because this is the Middle East. 
Nothing works like this. It is always like this. It is always a 
little crooked, a little off base.
    So in this case, we should have no illusions that we are 
making an alliance with him, or anything like that, but if we 
can find a way to gain Russian cooperation without sacrificing 
too much of our own interests, I don't see that that is 
counterproductive. And in my testimony, I said, I think it is 
going to be hard to get a political solution in Syria without 
Russian acquiescence or cooperation. Just because they----
    Ms. Tsongas. I want to give Ambassador Crocker just a 
moment. I am about out of time, but I appreciate your comments 
thus far.
    Mr. McLaughlin. Well, I will just wrap it up by saying 
that, that the Russians have sufficient influence in Syria; 
that unless we find a way independently, or through other means 
to destroy Assad, where we don't have to deal with that factor 
anymore, the factor of a Syrian Government that has to be 
somehow brought to the table and managed through a transition, 
Russia is going to have some sort of voice in that, which, of 
course, is another interest of his, another reason why he went 
into Syria to make sure that he didn't lose his base at Tartus 
and the land installation he has at Latakia.
    So that is my general perspective on this, which is proceed 
with caution, but get what you can in terms of interests.
    Ms. Tsongas. I am sorry, Ambassador Crocker, we won't be 
able to hear you.
    The Chairman. I bet we will come back around to that 
question because it is a very important issue in solving all 
this.
    Mr. Turner.
    Mr. Turner. Mr. McLaughlin, Ambassador Crocker, thank you 
for being here.
    Ambassador Crocker, I appreciated your briefings that I, 
too, received in Iraq when you were there, and I appreciated 
your dedication. Your written statement is incredibly helpful. 
I mean, there are three things that I think are points that 
need to be emphasized: And one is that when you left Iraq in 
2009, that you could never have imagined how it looks today, 
even in your worst nightmares; and two, you state further on in 
that paragraph, on page 2, ``Withdrawal of our forces and a 
virtual end to sustained political engagement in Iraq after 
2010 did not end the war. It simply left the field to our 
enemies.''
    And then you end that paragraph with, ``This is an 
unacceptable threat to the United States national security.'' I 
think that is why everyone is so concerned is because of the 
clarity of that this is, in fact, an unacceptable threat to our 
national security.
    Now, there are three things that we could debate that I 
think would be meaningless debates, and one of which is whether 
or not we use the word ``Islamic'' extremists or ``Islamic'' 
terrorists. I think ISIS and ISIL resolves that for us. The 
``I'' in ISIS and ISIL is Islamic.
    The debate on the issue of refugees should really be a 
debate about the fact that the failure of our policies has 
resulted in these refugees because they are not safe at home. 
It is not the issue of our compassion to those that flee the 
Syrian regime and flee ISIS, because neither of them have 
compassion for them and are trying to kill them. The issue is 
how do we have compassion for them to provide safety in the 
area of Syria and Iraq and stability where they can stay at 
home.
    And another debate I think that is meaningless is the issue 
of boots on the ground or not on the ground, because that 
somehow has become a threshold litmus test of whether or not 
you have a correct policy. The correct policy is having a 
policy and a strategy for defeating ISIS and ISIL.
    And so I am going to turn to you and your great expertise, 
in the time that you spent in Iraq. I appreciate the comments 
that you have made. But in order to determine boots on the 
ground or not boots on the ground, we have to have a strategy. 
You certainly indicated it is going to take diplomacy. I agree. 
I think Secretary Kerry should go and do as you have said and 
dedicate himself to this.
    But there does have to be a military component. And what 
are some of the elements that you would see, sir, in that 
military strategy? Because I think there is great frustration 
in the American public as we hear that there are attacks now 
happening to ISIS and ISIL training camps, that we have known 
where they are, but no one is attacking them. Logistic supply 
lines, sales of oil, other, you know, operations of ISIS and 
ISIL are going without challenge.
    So clearly, the strategy that we are doing is not working, 
and is threatening our national security. What are just some of 
the basic elements that we are not doing that you believe 
should be that overall military strategy as policy elements? 
Mr. Ambassador.
    Ambassador Crocker. Thank you, Congressman.
    The two that I think are important for us to do and do 
swiftly is, first, amp up significantly the air campaign 
against Islamic State. Paris changed a lot of things, and I 
think it should certainly change how we look at a target list. 
Let's look at it again. If there are key facilities for Islamic 
State that we have identified, we need to go nail them. And, 
again, money counts.
    I hope that we are significantly ramping up an effort to 
figure out how they are making it and cut it off, whether that 
is politically or militarily inside Iraq or inside Syria. They 
are making a lot of money out of oil. Well, they have got to 
move the oil somehow. We should be able to figure out how and 
just absolutely stop it.
    The second thing, as I suggested, is the establishment of 
no-fly and safe zones. And I don't mean to be glib about this. 
I mean, there is risk associated with that. There is cost 
associated with it. I am in the enviable position for the first 
time before this committee where I am not responsible for 
anything, but you are. So these are thoughts.
    But I think that the establishment of no-fly and safe zones 
could bring in our Arab and--or Jordanian and Turkish partners 
in a way they are not engaged now, including with the 
possibility of a ground component. It could set the Russians 
back, getting at the Congresswoman's question. It would be 
fundamentally a military step, but it would have political 
significance.
    Both of these together could then change the political 
environment we are looking at now that might make a political 
approach that is hard to imagine imaginable.
    Mr. Turner. Thank you.
    The Chairman. Thank you.
    Mr. Walz.
    Mr. Walz. Thank you, Mr. Chairman.
    And thank you both again. You have been incredibly helpful.
    I think, I find the need to do this, if we are quoting 
quotes about what happened to set our policy going forward, I 
just want to remind people of two. March 16, 2002, from Vice 
President Cheney: Things have gotten so bad in Iraq from the 
standpoint of the Iraqi people, we will be greeted as 
liberators; I think we will go relatively quickly. Weeks rather 
than months, he predicted, significant elements of the 
Republican Guard will step aside.
    Later, June 20, 2005: The insurgency in Iraq is in the last 
throes; this will be over during the Bush Presidency.
    Certainly mistakes have been made. Certainly things have 
been quoted. If we are using these things, we better learn from 
what was said as we are going forward. And I appreciate both of 
you for your thoughtfulness on that. You have always been 
there. You are giving us great testimonies today. With that, I 
think, as Members of Congress, it is important to keep that in 
mind.
    Ambassador Crocker, my question to you is, are we 
synchronizing with State Department in all of these elements as 
we deal with, look at Syria, look at Iraq, as you are talking 
about? Because I keep hearing here, and you hear it in this 
disjointed silo talk of military action and everything else. In 
your experience, do you see a synchronized plan, if you will?
    Ambassador Crocker. I certainly think this would be the 
time to develop one. One thing that Dave Petraeus and I did--we 
were sort of working on this before either of us ever got to 
Iraq--was to establish a joint civil-military team to begin 
framing a joint campaign plan. We developed it. It was blessed 
by the White House, and it was the plan for the whole of 
government, all the civilian agencies, DOD, and the military. 
It was, again, our joint campaign plan.
    And I think the circumstances now, even less favorable and 
more complex, badly call out for that kind of broad strategy 
and a unified strategy. In our system, the only way you get 
there is for the White House, the President to say, this is 
what we are going to have. Go out and do it. And I certainly 
think this is the moment to do that.
    Mr. Walz. Well, I agree, and I think, in candor, that is a 
fair criticism. Because I am trying to understand, one, as you 
said, what the strategy is, and how that nests in the broader 
strategy of national security from the 50,000-foot view, if you 
will.
    Mr. McLaughlin. If I could add a point to what the 
ambassador said, with which I completely agree, when we talk 
about military component here, and in my testimony, I do, as 
the ambassador does, recommend some amping up of a number of 
things. And I would underline, I think, that maybe the safe 
zone would be--to answer another question that came here--maybe 
the most dramatic and consequential thing that could be done, 
because it would be visible, it would be different, it would 
require leadership, it would require risk, it would require 
coalition activity, and it would grab the attention of the 
region, and it would send a good message to Sunnis.
    That said, when we talk about military action, going to 
your point, Congressman, I think we always have to remember to 
ask the question, what comes next? So you have got to go 
through phase one, phase two, phase three, and the important 
phase, phase four.
    What happens when we do amp up our military and we go in 
and we--through one means or another, hard to calibrate here--
manage to get Mosul back or Ramadi or Fallujah and break down 
Raqqah, what is our plan then? Who goes in? What is the 
governance structure that we contemplate? Who is in charge of 
it? What is our role in bringing it about?
    So I just urge everyone, even though the two of us seem to 
favor a greater military component, that we all need to step 
back and say, and then what?
    Mr. Walz. Would it be both your hopes that as Members of 
Congress, we should all be able to articulate that fairly 
clearly what that would be? Does it trouble you that you do not 
hear that or you see, again, in the midst of all this, and it 
is certainly rightful to be concerned, but as the refugee 
crisis dominates the discussion as opposed to the root cause of 
the refugee crisis?
    Mr. McLaughlin. Well, we are in the early days of 
recalibrating our thinking about this, I believe, as a result 
of Paris. And as I said to the chairman just before we began, 
this feels a lot like post-9/11 to me in terms of the barrage 
of conflicting reports we are getting from the media, and in 
terms of the emotions we have about it and the frustration we 
feel.
    So even though we feel a greater sense of urgency and 
should--and should--I am the one who said time matters--we need 
to do it with all due deliberation.
    Mr. Walz. I appreciate that. And I think it goes to my 
point I started with. We need to make sure we don't go blindly, 
because we do have the advantage of past both successes and 
failures.
    Thank you. I yield back.
    The Chairman. Mrs. Walorski.
    Mrs. Walorski. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here. I appreciate it. And 
I appreciate your expertise.
    I just kind of want to follow up on the last couple of 
questions. On the issue of taking your expertise and being able 
to look at this, kind of, from all the expertise you have and 
looking at it from the outside and saying, you know, here is 
what really needs to be happening, but in real time, in this 
culture and this country and what is happening.
    And what is happening right here today in other committees 
that are meeting, talking about what do we do with refugees, 
talking about the difference between what we are all saying and 
what we should be saying and some of the benefits about what 
you are talking about with refugees and how we look then at all 
these things being projected back.
    What is the role of the President? Because he is saying 
things too. So he is saying, you know, earlier on, these are JV 
folks. He is saying, we have contained these people as early as 
the morning of the attack on Paris. What kind of role does that 
play? How does that play back to ISIL when there is a 
disconnect to the American people? They are watching it. Every 
night we are watching it with them.
    The President is here. We are here. Governors are saying 
no. Federal law, the President says--overrides anything that--
and you have Americans all over the place, and they are hearing 
a mixed message from all of us. What does that say? What kind 
of signal does that send?
    Ambassador Crocker. Okay. That is a great point, and it 
weaves in some of the other questions and things we have been 
talking about. We are, of course, a Presidential system.
    Mrs. Walorski. Correct.
    Ambassador Crocker. Policies are set at one end of 
Pennsylvania Avenue, and they are resourced at this end. Our 
post-9/11 moment, if you will, that you had described, is 
actually, this time around, maybe a pre-9/11 moment, where we 
now have the opportunity, as we look at what happened in Paris, 
and look at what could happen here, to say it is a new day. We 
are going to move together in developing and implementing a 
coordinated policy that is truly whole of government, and that 
involves consultations, meaningful consultations with Congress, 
and we are going to do it quickly. Now, that has to be a 
Presidential initiative.
    Mrs. Walorski. Correct. And let me just throw one wrinkle 
in this. Because when we are talking about real time, real 
issues, real problems that we deal with right now--I just 
talked to some of my folks that just deployed. They were there 
for 6 months in Iraq, came back, and I was just with them last 
week. And after the doors were shut, and I said, what is really 
going on? Because we are hearing horror stories sitting on HASC 
[House Armed Services Committee].
    And the rules of engagement keeps coming up. So I talked to 
fliers, that when it came to trying to engage on a convoy of 
American trucks that were left behind when the Iraqis fled 
their positions, heavy artillery, convoy of ISIL soldiers with 
artillery in the back, the beat is on, they ask if they can 
engage, and the decision came back no. And it does not seem to 
be just the folks I have talked to.
    We have had hearings here on the issue of rules of 
engagement. If the rules of engagement aren't lined up with 
what you are talking about in potentially a pre-9/11 event, 
where else do you start and what else can you do if, you know, 
we are hearing one thing from people on the ground and the 
message from the White House seems to be something entirely 
different, or the message even from Secretary Kerry? What do 
you do with a great divide in between?
    Ambassador Crocker. I think that we realize that Friday the 
13th changed the world, and it needs to change how we think, 
organize, and act. Let's look at all of it. What are we doing? 
What are the ROE [rules of engagement]? Do they make sense 
anymore? Are they going to allow us to degrade Islamic State to 
the point where, like Al Qaeda in the Afghanistan-Pakistan 
border area, they really don't have the bandwidth to plan 
complex organizations. How do we get there? This needs to 
happen. It needs to happen on a whole-of-government basis, and 
it needs to happen now.
    Mrs. Walorski. I appreciate it.
    And, Mr. Chairman, I yield back. Thank you.
    The Chairman. Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    Ambassador Crocker, I want to ask two big questions, and I 
am going to try to give you 4 minutes to answer. And you can 
even point me in the right direction if there is not enough 
time. But to follow up on something the ranking member said, 
you made a really compelling case about how we need to reverse 
gains that Iran has made in Iraq, and roll back their hegemony 
there, and we can't act on that quickly enough.
    But within the context of the Iran-Saudi Arabia cold war 
that was described earlier, it is hard to see how Saudi Arabia 
is a much better friend than Iran. Their successful exportation 
of Salafism, Wahhabism, the funding that continues to this day, 
the mess that they have helped to create in Iraq, in Syria, the 
fact that they may have a comparable number of beheadings in 
Saudi Arabia, comparable to ISIS, and the fact that they aren't 
really accepting refugees, how do we use our influence with 
Saudi Arabia? What leverage do we have to get them to be a 
better actor?
    And then the other question, with 3 minutes and 30 seconds 
left is, can you outline at 30,000 feet a comprehensive 
strategy for the region so that we are not picking one or the 
other battle, and really addressing things comprehensively? You 
mentioned the modern area is 100 years. What is the 100-year 
look at this? Sorry for the short time to respond.
    Ambassador Crocker. Yes, sir. On Saudi Arabia, yes, we have 
a lot of significant differences with the Saudis that, you 
know, John McLaughlin has alluded to. At the same time, the 
U.S.-Saudi relationship has been a pillar of U.S. policy and 
engagement in the Middle East since the end of World War II. I 
mean, our policies and our engagement were set on the deck of 
the USS Quincy in Great Bitter Lake in early 1945, the historic 
meeting between President Roosevelt and Ibn Saud.
    So before we kick the prop out from under that keystone, we 
better really think about it. And think, as you said so well, 
you know, that when the Saudis finally got engaged, circa 2003, 
they did a pretty good job cleaning house. We need to build on 
that.
    There is a fundamental issue there, no pun intended, of 
Salafism, because if you look at the theology of Islamic State, 
it goes back to the same primary source of Ibn Taymiyya, who is 
the primary theological source for Saudi Salafism, as it is for 
Islamic State jihadism. So there are some very tricky issues 
here. But I think we have got to be careful with that 
relationship, particularly at the current time.
    The overarching U.S. strategy, I would say, it is the 
security and the stability of the states in the region, broadly 
speaking, certainly those who have been close to us. They are 
facing unprecedented threats. Let's look at it across the 
board. Who needs what from us?
    Lebanon, a country that I spent 6 long, hard years in, 
including during the Beirut Embassy bombing that I survived, 
they are facing an existential threat through the refugee 
flows. You know, one out of five people in Lebanon is a Syrian 
refugee. What do they need to ensure their own stability? What 
does Jordan need? What do the Kurds need? Under the overarching 
construct that a stable Middle East is a vital U.S. interest, 
and that it has a lot of components, so that is where I would 
start.
    It raises issues of economic development, of military 
cooperation. There are a lot of pieces out there. This is the 
time to knit it into a whole. And the construct I would offer 
is just that, what is necessary for the security and the 
stability of the region and of our friends in it. This is an 
Arab-Israeli discussion. It is an Arab-Kurdish discussion. It 
is a critical American discussion.
    Mr. O'Rourke. Thank you very much.
    I yield back.
    The Chairman. I am struck by the need for strategic 
thinking, now as much as we ever have needed it.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    I would like to thank Mr. McLaughlin, Ambassador Crocker. 
Thanks so much for joining us.
    I wanted to pose a question to both of you as we look at 
this pretty complex situation. I want to point to two 
individuals that I think have pretty good perspective on there. 
They spoke at the Reagan National Defense Forum. And former 
Under Secretary of Defense Policy Michele Flournoy argued to 
make sure we are putting opportunities and solutions in our 
hands so that we can influence the outcome of any political 
negotiations, and make sure that we are mindful of all the 
different pieces of how this fits together.
    And Condoleezza Rice and Robert Gates argued in a Wall 
Street Journal article saying that we must create a better 
military balance of power on the ground if we are to seek a 
political solution acceptable to us and to our allies. And as 
you know, with Russia being in there, they seek to influence a 
political balance there, I think, to try to force a choice: It 
is either Assad or ISIL, obviously now with the other forces in 
the region, both with Iran trying to play in that arena and 
others.
    Give us your perspective on how that balance ultimately 
plays out. What can we do to best predominate in the outcome of 
what will happen, and we will make an assumption that we do, 
indeed, defeat and destroy ISIS and that we are left now with 
what happens in that power vacuum. Give us your perspective on 
what we should do to make sure the outcomes are different than 
what has happened in Iraq?
    Mr. McLaughlin. Well, I think we need to be seen and to be 
the leader. There is a struggle for leadership going on here, 
and I think we are two or three beats behind. Just over the 
last number of years, it has just worked that way. And there 
was a time when the U.S. was the power broker and honest broker 
in the Middle East.
    A lot of what Ambassador Crocker is talking about in 
Baghdad amounts to what I would call the ``Honest Broker'' 
rule, the one that everyone can come to in a region that is 
very, very divided. We have succeeded in the past when we have 
forcefully seized that role. That is the first thing we need to 
do.
    The second thing we need to do--we have talked about the 
military component. I think, you know, we agree we need to do 
more and we need to be seen as the ones organizing that more 
and bringing others along with a concept of what we are going 
to do and where it is going to end, what is the exit--not exit. 
``Exit'' is a bad word--what it is going to evolve into. 
Because I don't think exit is what we want to do in the Middle 
East.
    Finally--and I am going to stop and let Ambassador Crocker 
have the time here--finally, I think on Assad and the choice 
that Russia is trying to set up, I think clearly they were 
trying to set that up, and perhaps they still are, although 
their calculations are changing a bit, now that they have had a 
plane taken down. That is not going over well in Russia.
    Mr. Wittman. Yeah.
    Mr. McLaughlin. And I think--I cannot prove this to you--
but I think Putin went in there with the understanding, at some 
level, that Assad cannot rule this country again, the Syria we 
have known. He might have been able to help Assad shrink it 
down to a small patch that he owns, and I think--in the 
councils being discussed in Russia, people must sit around and 
say, our goal is not to preserve this person.
    Mr. Wittman. Yes.
    Mr. McLaughlin. Our goal is to make sure that when the 
system changes, we are calling a lot of the shots on who is in. 
So I think he is not wedded to this individual. Now, we have 
got to find a way to get into that----
    Mr. Wittman. Yes.
    Mr. McLaughlin [continuing]. Wedge and call the shots.
    Mr. Wittman. Very good.
    Ambassador Crocker.
    Ambassador Crocker. I think that is important. I believe 
that military actions along the lines I outlined--air strikes 
to weaken Islamic State, no-fly and safe zones to weaken Assad, 
and kind of shift the dynamics, which now favor Iran, Russia, 
and Assad--need to use military action to shift those 
parameters.
    Yes, the Russians are going to have to be part of any 
agreement. I would rather us go into the process of trying to 
make one on terms that are less favorable to them, more 
favorable to us, and I think we can do that.
    And I find--for once in my life, I find you irrationally 
optimistic. I never thought I would say that about this great 
American hero. But I would like to believe this about Russia 
that they are--in the wake of the airliner, that they are 
changing their position. I will believe it when I see it.
    I noticed that the air strikes that they launched against 
ISIS targets, they said in one case, and we hit ISIS targets 
yesterday, the day before, near Idlib in the west. ISIS is 
nowhere near Idlib. They hit the Free Syrian Army, again, in 
Ararashem. Again, groups we support.
    Mr. Wittman. Sure. Very good.
    Thank you, Mr. Chairman. I yield back.
    Mr. McLaughlin. So as not to seem like Pollyanna here, to 
disappoint the ambassador, I would just rephrase it a little 
bit to say I think Russia may be recalculating its interests 
here, not really changing its desires.
    Mr. Wittman. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Ashford.
    Mr. Ashford. Thank you.
    And thank you for being here and thank you for everything 
you have done. This truly is an incredible afternoon for me. 
And I am new, but I did, in February, did go to the Middle 
East, and we did speak with many of the leaders you have talked 
about. And clearly, what was talked about then is what, to some 
extent, what you are talking about now.
    I mean, the national guard issue was very compelling. We 
talked to the minister of defense who said this is a way for us 
to get national buy-in to what we are trying to do by having 
the national guard form up in each one of the provinces.
    And then, also, King Abdullah talking about the idea of 
safe zones in the desert, outside of the cities that could be 
developed. And none of that seems to have occurred during that 
7 or 8 months. And there are other things that were talked 
about as well.
    I just have two basic, general questions. One is, when we 
talk about containment versus another strategy that is not 
containment. I have been thinking about this when we use the 
word ``containment,'' is there even a possibility of a 
containment strategy in the Middle East? It is so dynamic and 
changing so quickly. Both of you, maybe that is a very simple 
question, but I don't see how you can contain something that is 
changing, especially when you have an ISIS, an organization 
that can do what it did in Paris?
    So, Ambassador.
    Ambassador Crocker. Thank you. And I would just say very 
quickly, I am very pleased that you went out in February. I 
know what your lives and your schedules are like. I have seen 
members of this committee in hard places. I just can't 
underscore strongly enough how important CODELS [congressional 
delegations] to this troubled region are in ensuring that 
America has, through its elected representatives, has an 
understanding of what the realities are. So I hope you will 
continue to visit.
    Yeah. Again, as Dave Petraeus and I have said, what happens 
in the Middle East doesn't stay in the Middle East. And that 
has always been true. I was a political counselor in Beirut 
after the embassy bombing when George Shultz came out as 
Secretary of State and he said he wished he could just build a 
10-mile-high wall around Lebanon. And whatever happens inside 
it happens, but it doesn't happen to us. Well, you couldn't do 
it then and you can't do it now.
    So you can't contain Islamic State any more than you could 
contain Al Qaeda. You have got to go after them wherever they 
are. Again, I do not believe you can defeat or eliminate 
Islamic State by air power, but I think we can certainly mess 
them up enough that it is going to be pretty darn difficult for 
them to get the bandwidth to plan a complex attack.
    So I don't see containment as at all a viable option, and 
very dangerous to even talk about it. I don't see defeat in the 
cards anytime soon. But, boy, we should be getting after 
degrade in a very major way.
    Mr. Ashford. Sir.
    Mr. McLaughlin. I think ``containment'' is a bad term to 
use with this group. The philosophy that I have always believed 
in when it comes to defeating a terrorist group has three 
parts: First, you have to destroy the leadership; second, you 
have to deny it safe haven; and third, you have to change the 
conditions that gave rise to the problem.
    Okay, with Al Qaeda, we did the first two pretty well. The 
third, that is a bigger whole-of-government, long-term issue 
changing the conditions that give rise to this. With ISIS, we 
haven't destroyed the leadership, they have a safe haven, and 
the conditions are all in flames. So the idea of containing 
something that explosive doesn't seem like the right idea.
    I am not sure what containment even means. Seems to me, if 
you bottle these people up, they are still going to keep coming 
to Paris, Brussels, Turkey, perhaps here.
    Mr. Ashford. And I think that is what we saw when we were 
there was that containment can't possibly work. Everyone that 
we talked to said that very thing.
    And then, I don't have much time left, but the other 
question that always comes to mind when the French talked about 
we are at war with the Islamic State, is that where we are? Is 
that the word? Is that the proper terminology? Very briefly. I 
don't have much time left. Mr. Ambassador.
    Ambassador Crocker. Well, that along with some of the other 
things we have talked about, can be a pretty fruitless 
linguistic endeavor. We have talked about, you know, is it 
Islamic terrorism? To me, that is an absolute no-brainer. 
Islamic State named itself, and it has got a theology. Same 
thing, war on terror. To me, it doesn't matter what you call 
it. You just----
    Mr. Ashford. It is what it is.
    Ambassador Crocker. You just have to do it.
    Mr. Ashford. Thank you very much.
    The Chairman. Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman.
    And I appreciate your candid remarks.
    When I visited Iraq in 2011 at the drawdown, and when we 
exited Iraq, I had two sons over there serving in the United 
States Army. And it was interesting their take in regards to 
what occurred just recently with ISIS, and what occurred within 
Baghdad, and particularly what, Mr. Ambassador, you had 
mentioned, the fact that we not only left--took our military 
out that gave, I think, some backbone, at least had some 
conversations with the Iraqi military, because my sons did some 
train-up with the Iraqis.
    And there was some brigades that were outstanding combat 
units, and there were others that were terribly lacking. But 
then when we pulled out the political engagement, it just seems 
like that was a huge mistake that compounded it because we 
didn't have troops there to back up, or at least on a training 
end of it, assist the Iraqis.
    I mean, we saw that starting to occur, I think, in 
Afghanistan. The President has since changed that. And I think 
you hit on this--and I will get to a question here in a second, 
but, Mr. Ambassador, I believe that a question was asked 
whether or not we have a strategy today to both of you.
    Do you see us having a coherent strategy today from the 
President to outlining, A, what we expect to accomplish; and 
then B, how we are going to accomplish that? Do you see a 
strategy today that is articulable that we are having a hard 
time with? Do you see that today with the President?
    Ambassador Crocker. I would be just blunt: No, I don't see 
a comprehensive strategy. And what I was trying to get at in 
response to Congressman O'Rourke's very good question, you 
know, maybe it was okay--I don't think it was, but maybe it 
was--before November 13; it is definitely not okay today. We 
need that strategy, and the President has to set the course.
    Mr. Nugent. And I think that is where we struggle is that 
the President does have to set that course as Commander in 
Chief. And particularly, I think where you are seeing all this 
blowback now in regards to the Syrian refugees, you are 
seeing--now the Governor, I think, from Maryland just said they 
don't want them--is because I think that--maybe this is just my 
feeble brain saying this--is that if we had had a strategy, it 
might make it more palatable to the American people as to what 
our strategy is, what we expect it to look like in regards to 
accepting those Syrian refugees.
    Because I hear what you are saying, is that if we 
absolutely say no, you know, we are going to create some other 
problems off in the future, whatever. But the American people 
are going, you know, we don't want them here just because we 
see no leadership. And they are concerned about--and I heard 
you talk about thorough vetting of the Syrian refugees.
    Now, we sat here when we were talking about the Free Syrian 
Army and how they are going to train them up and how are they 
going to vet those folks, and we are going to have to rely upon 
Saudi Arabia as a vetting process, because we didn't really 
have the ability to vet within Syria.
    So I think, how do we do that? I mean, how do you assure 
the American people that there is truly--not just words, 
because the President does a great job with that--but truly 
believe that they are going to be safe with those that we allow 
in? And I don't have a problem with refugees. I mean, that is 
not my issue. But it is how do you make America safer, and how 
do you convince the American people that you are going to do 
that?
    Ambassador Crocker. I would agree, sir, that the refugee 
issue has to be woven into a larger whole, and I tried to get 
at that a bit, saying this step on refugees that gives us 
leverage with other countries for them to do more to engage 
them more directly and meaningfully on the broader problem, to 
establish safe zones, north and south in Syria, so----
    Mr. Nugent. And I think you brought up some good ideas on 
no-fly zone. But I think the difference is in Syria, it would 
be, I think would be difficult for us just because of the 
ability for the Assad regime if they saw that as a move to take 
them out by doing the safe zone. With their ability to strike 
our aircraft, I would just think that we are going to--we are 
going to ramp up what this looks like. And now that you have 
Russia flying there, I just don't know how--maybe we could have 
done that earlier, but I don't know how that works today.
    Ambassador Crocker. Again, part of that larger linked 
comprehensive discussion. Safe zones, no-fly zones, are linked 
to the refugee issue, are linked to a weakening, not 
elimination of Assad, are linked to a degrading of ISIS, are 
linked to a political push in Iraq. It all has to be sewn 
together, and that is what I hope we are doing right now.
    Mr. Nugent. Thank you, Mr. Chairman. And I appreciate that.
    The Chairman. Mr. Moulton.
    Mr. Moulton. Thank you, Mr. Chairman.
    Thank you, gentlemen, both, for joining us here today.
    Ambassador, I was a special assistant to General Petraeus 
when you were serving in Iraq. And although I was actually out 
in the field, I reported directly to him, and I can't tell you 
what a difference it made, the confidence that you and he 
brought to the troops on the ground with your leadership. So 
thank you especially for that.
    I share your view that the center of gravity here is Iraq 
with the Islamic State. That is where they were able to 
dramatically expand their territory and influence. And I also 
share your view that it is our political withdrawal from the 
Iraqi Government that essentially set the conditions for them 
to expand.
    I would like to hear from both of you, how, at this point, 
we should reestablish control or influence in the Iraqi 
Government?
    Ambassador Crocker. Well, it is a whole lot harder to 
regain influence once you have lost it than to maintain it when 
you have got it, but we must make this effort, in my view. And 
I have given you my initial thought on this: To show we are 
serious, you send America's top diplomat. And it is not an 
overnighter. I mean, it is days.
    Mr. Moulton. And I assume we would have to put advisers 
back into the ministries, back into the prime minister's office 
as well?
    Ambassador Crocker. Well, we would have to look at that. I 
think that was important, but maybe not critical. The critical 
element was the heavy political lift.
    I will just give you one example, and it gets at 
Congressman Nugent's question, what happened to the Iraqi 
military when we completely disengaged? Well, General Petraeus 
and I faced this when we were there. Nouri al-Maliki had one 
criterion for his top field commanders. It wasn't competence. 
It wasn't battle experience. It was loyalty, could he be 
absolutely certain that they would not take their division, 
make a sharp, right turn and overthrow his government?
    Mr. Moulton. Right.
    Ambassador Crocker. So he would put in some pretty awful 
people or try to. But because we had advisers out there and 
were on it, we could go in and say, prime minister, not a good 
idea, here is why. When we stopped doing that, he made all of 
those appointments. And the Iraqi army turned into the force 
that just cut and ran as soon as Islamic State showed up 
because they had no leadership, because the prime minister, for 
understandable reasons, in his view, prized loyalty above all, 
and there was no American counterweight. That is what we have 
to bring back.
    Mr. Moulton. Mr. McLaughlin, do you have anything to add to 
that?
    Mr. McLaughlin. I would just think that--no, I think 
Ambassador Crocker has authority on this by virtue of his time 
there and his success and his experience.
    The main point I would underline that he made, which I have 
seen time and time again is, it is much harder to get that 
influence back than to keep it when you have it. Now, however, 
I will just elaborate a bit by saying, if we don't get it 
back--as I say in my testimony, if we don't get it back, the 
consequences are Iraq will not survive as a unitary state, nor 
will they ever have an effective fighting force, which, in 
turn, means that Iran will own this problem.
    Mr. Moulton. Let me propose a very radical idea, and I have 
to confess, I haven't given this much thought myself. But would 
there be any virtue to saying, Russia, you take Syria; we will 
take Iraq?
    Ambassador Crocker. Sir, could you sit under a tree until 
that thought passes. It would be delivering the Sunni majority 
of Syrians into the hands of Assad and Iran backed by Russia, 
and the results of that would make it impossible----
    Mr. Moulton. For Iraq as well?
    Ambassador Crocker [continuing]. For us to do anything in 
Iraq.
    Mr. McLaughlin. Yeah, this is going to be a long, hard slog 
involving political, military--and I want to emphasize what the 
ambassador said a number of times--whole of government. The 
President has to lead. He has to reach out to this branch of 
the government, which I have been through seven or eight----
    Mr. Moulton. Let me just ask one more question because----
    Mr. McLaughlin [continuing]. Administrations and I see that 
rarely happening.
    Mr. Moulton. Right. Just a few seconds left, why is it 
important in our fight against ISIS to accept refugees and to 
continue doing so?
    Ambassador Crocker. I tried to lay out the reasons that----
    Mr. Moulton. Right. Mr. McLaughlin, if you could----
    Mr. McLaughlin. I think if we refuse to accept them, we 
send a terrible message that will appear in ISIS propaganda. It 
will say, you, Sunnis, you refugees, you people who are 
fleeing, you are welcome only in the Islamic State in the 
caliphate. You are not welcome in these materialistic, corrupt 
countries. We will just play into that narrative.
    Mr. Moulton. Thank you, Mr. Chairman.
    The Chairman. Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your testimony.
    I was in the Middle East in May, en route to Afghanistan. 
We stopped in Kuwait and Qatar, met with the joint task force 
leadership, and we were at the air operation center, which I 
have spent time there myself. And they basically told us that, 
you know, we have got them on the defense, and 2 weeks later, 
Ramadi fell. And I am sort of simplifying our long 
conversations.
    And then last Friday, the President said, we have got them 
contained, you know, right before the Paris attack. So clearly, 
you know, we have got gaps in intelligence and information.
    Just, Mr. McLaughlin, with all your experience, what can we 
do in order to close some of those gaps and, you know, 
specifically as we are looking at a whole-of-government 
approach trying to choke off their resources, like what else 
can we do to build capability growing in the intelligence? Are 
there other things we can do short term? Long term? Clearly we 
have gaps.
    Mr. McLaughlin. Well, ironically, I mean, counterterrorism 
is the thing we have worked probably most intensely on over the 
last 12 years. It is the top of the heap in terms of priority. 
The gap issue is always a hard one to understand. In other 
words, the way I would put it is, we collectively, our allies 
and we, the United States, have prevented a lot of terrorist 
attacks, foiled them, disrupted them.
    They get through sometimes. They got through in Paris. I 
don't know enough about the reporting that flowed back and 
forth to understand exactly how that happened. I understand, 
for example, there was a paper written here that referred 
publicly to one of the perpetrators, to the so-called 
mastermind. Some of these people were on our lists.
    The only thing I can say to explain this without regrouping 
my colleagues and saying, tell me everything you know, would be 
that in this particular line of work, it is very labor 
intensive. And particularly when it comes to surveillance, you 
run out of resources real fast, particularly in a country like 
France, which is relatively large, has a--among the Europeans, 
I would say the French counterintelligence--counterterrorism 
effort is probably the best. And yet, they probably simply 
missed it because they were overwhelmed by the task.
    So there is an urgency that has to always be present. You 
have to check out every lead, and then you have got to go to 
school on your mistakes, go to school on what happened here, 
which I am sure they are going to be doing to ask what more do 
we need. You will see them. They have declared this state of 
emergency. They have very intrusive surveillance laws, as you 
know, which don't even require court orders, to monitor phones 
and so forth.
    So I think we have to also step back and ask ourselves, for 
intelligence as a whole, do we have the balance right in the 
terms of the way we think about it? There is a big debate now, 
as you know, about strong encryption. The whole Snowden thing, 
I can tell you that it had a powerful effect in warning 
terrorists not about specific methods, but about the fact that 
our surveillance is very good.
    And they have tightened up their communication, so that has 
made the job of intelligence much harder, and when you put--I 
don't know that strong encryption was involved in the Paris 
thing yet. I don't know whether we know that, but I have heard 
Director Comey's testimony about the effect that that has had 
on our inability to detect certain things here, such as the 
events that happened in Texas, for example.
    Ms. McSally. Right. So I am on the Homeland Security 
Committee, and I was in the task force that was appointed for 
the last 6 months just to look at combating the flow of foreign 
fighters and terrorists. And we had 32 findings. We released 
our report in September. But one of them is related to going 
into dark space and then encryption and the challenges with 
that.
    And look, we have been trying to raise the alarm bells for 
a long time now. Now, there is obviously a tremendous focus 
since last Friday, appropriately. But my next question, I only 
have a little bit of time left is, we are now focused on ISIS, 
but we also need to look at the region.
    And you mentioned, Ambassador Crocker, the Sunni-Shia rift 
is now a canyon. A lot of our Sunni Arab allies are somewhat 
ambivalent and bystanding because, you know, they are not 
convinced that ISIS is a threat to them. They see this militant 
Islam state of Iran with America engaging with them and their 
influence in the region through Iraq and Assad, Hezbollah, 
Hamas, and they really think they are the threat.
    So can you just speak to--I just have a little bit of time 
left--you know, the Sunni-Shia rift and how that is impacting 
the whole region?
    Ambassador Crocker. This is the first time this has 
happened region-wide. Iran and Saudi Arabia used to be allied 
under the Shah, so it is not foreordained that it is this way, 
but it is this way. And that is why I have said several times 
here, and in my testimony, we have got to be extremely careful 
not to further fuel the perception among the Sunni Arabs led by 
Saudi Arabia that we are really cozying up to Iran.
    Ms. McSally. Right.
    Ambassador Crocker. Because that is not the side of the 
canyon we are going to want to be sitting on given our longer-
term interests. That is why, as we wade in with a more 
intensive campaign against Islamic State, we have got to 
balance that by causing some significant pain to Assad and 
those behind him.
    So this is the problem from hell, trying to calibrate our 
actions, think them through, be sure we don't leap into motion, 
we will do something, think later, not a good idea right now. 
This is the moment to reassess post-Black Friday. We need to do 
it. We need to do it quickly, and we need to do it very, very 
thoughtfully.
    Ms. McSally. Thank you. My time is expired. Thank you, 
gentlemen.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Johnson.
    Mr. Johnson. Thank you.
    Ambassador Crocker, you see no strategy. But I see a 
strategy working with coalition partners and local partners 
like the Kurdish forces and the Syrian Arabs to deal with the 
ground issue, which has resulted in about 25 percent of the 
area that ISIL covered having been recovered. I see a strategy 
of working with the Turks to secure the Turkish border, to 
prevent the revolving door of radicalized terrorists in and out 
of Syria.
    I see a strategy of working to cut off ISIL's financing. I 
see a strategy of working to disrupt and expose the messaging 
that ISIL uses to radicalize and recruit terrorists. I see a 
strategy of working to stabilize the areas that have been 
liberated from ISIL control. I see addressing the issue of air 
power for the last year in both Iraq and Syria.
    That is a strategy. That strategy is being tweaked as 
events occur. So I think it is unfair to say that there is no 
strategy. I think there is clearly a strategy. And another 
strategy that has been employed is to protect our homeland from 
events such as that which happened in Paris last Friday the 
13th. And that is what Americans fear the most is an attack 
here on the homeland.
    And what I hear you gentlemen in unison with an old 
strategy, that, quite frankly, contributed to us being at this 
point where we are now, with the ill-fated invasion of Iraq as 
a response to 9/11, you would have us do the same thing now, go 
into Syria with a no-fly zone, or a safe zone, as you call it, 
Mr. McLaughlin, but what it is is actually a no-fly zone.
    And then both of you argued that the U.S. should lead a 
multilateral ground invasion, both in Iraq and Syria, but you 
don't have an end game. You don't tell us how long we are going 
to be there, how much money it is going to take, how many of 
Americans' sons and daughters will have to be killed and maimed 
in an endless war on foreign shores, us occupying basically. I 
mean, that is what it would result in.
    And those two tactics, or those two strategies, ground war 
and air no-fly zone, do absolutely nothing to stop the 
development of homegrown radicalized terrorists, which is what 
most Americans fear. They fear a terrorist attack here in the 
U.S. How will what you propose prevent or staunch the growth of 
homeland terrorists that would strike Americans here on 
American soil? How would a ground war, thousands of miles away 
from here, stop that?
    Mr. McLaughlin. It would not. In order to----
    Mr. Johnson. Well, how can we stop it?
    Mr. McLaughlin. That, to me, is not exactly a separate 
problem, but it is a problem----
    Mr. Johnson. It is the main problem.
    Mr. McLaughlin. It is a problem not closely connected to--
there is two types of attacks we could have: One is one that 
would originate here from homegrown; another is one that could 
come here from planning over there.
    Mr. Johnson. Well, how will a ground invasion over there 
stop that?
    Mr. McLaughlin. Well, I don't think either one of us are 
arguing for a ground invasion.
    Mr. Johnson. I have heard you say you want to lead, you 
want the U.S. to lead, and you want us to lead a multinational 
force to occupy, to basically go in and take and hold land. 
That is what I have heard both of you say throughout this 
hearing, and I think I am the last Congressman to ask a 
question.
    Mr. McLaughlin. The way I would----
    Mr. Johnson. That is all I have heard. A lot of blaming of 
President Obama and his team for what is happening now on the 
world stage. That is all I have heard.
    Mr. McLaughlin. You know, before we came in here, 
Ambassador Crocker and I were talking on the side here, and one 
of the points we made to each other was, having been in 
government, we recognize that government is very hard. It is 
very hard to do any of this stuff we are talking about here. 
And I know that the President has a logical approach here. I 
would call it contain and strangle, if I were giving it a name.
    I think what we are all struggling with is Paris happened 
despite that. And I don't see anything we have said as being 
inordinately critical of the President. What we are saying 
basically is, is what we are doing now adequate to prevent 
further incidents like that and particularly here. And to me, 
it is not persuasive that the suite of techniques we are using 
now is up to that task. And that is how I would put it.
    Mr. Johnson. It is quite easy----
    Mr. McLaughlin. And if we were still in government, we 
would still be struggling with this, I can tell you.
    Mr. Johnson. It is quite easy to sit back and when you are 
not involved and criticize. And that is--certainly, we need to 
hear from voices who disagree, you know. And Congress has a 
role in this, certainly.
    And I am not begrudging you having differences, but I do 
take issue with the scenario that there is no plan of action, 
the President is weak and indecisive and, therefore, is 
responsible for what is going on now with national security. I 
cannot let that idea, which is being perpetrated on to the 
American public, to drum us up towards another war that we 
participate in with ground forces. I just cannot let that go by 
without commenting critically, as critically as you all have 
been of the current policies that are taking place now.
    And I thank the chairman for indulging me.
    The Chairman. Mr. O'Rourke, you have an additional 
question.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    Ambassador Crocker, I wanted to return to the dialogue that 
we had earlier. Again, looking at the 100-year period of the 
modern Middle East, and those borders and some of the dynamics 
were formed in the cataclysm of a dying empire and the climax 
of another empire.
    And right now, 100 years later, we have some 
extraordinarily unusual events, the greatest mass migration out 
of that region, perhaps ever, but certainly the greatest mass 
migration to Europe, and greatest displacement since World War 
II, the attacks in Paris, the many failed states, three for 
certain, perhaps another on the brink.
    And I realize it is impossible to answer this adequately in 
3\1/2\ minutes, but if I boil down your answer about a 
strategy, it was to better support our friends and strengthen 
preexisting relationships. And I just want to, again, point to 
Saudi Arabia, with all the history there and the historic 
meeting between the Saud family and Roosevelt in 1945 forward, 
is it time to rethink that relationship?
    Should there be an additional price the Saudis pay for the 
implicit protection of the United States in terms of accepting 
refugees, being a signatory to the U.N., refugee compact to 
ensuring that they are not exporting this extreme 
fundamentalism, et cetera, et cetera? Just to use Saudi Arabia 
as one area.
    But I don't think we could do more of the same and expect a 
different result. I really feel if there is ever a time to 
rethink our approach to the Middle East, it is yesterday, and 
would love to hear your thoughts on how we might approach that.
    Ambassador Crocker. It is an important question, clearly. 
At this time of unprecedented upheaval in the region, and the 
evolution of an Islamic State threat that I have, in the past, 
styled as Al Qaeda 3.0, I would try to shore things up right 
now to reverse this really terrifying centrifugal spiral 
downward, and that, in my view, means working with our 
established partners.
    If we can get somewhere to a better place, clearly, a part 
of ongoing discussions should be, so, let's sit down and look 
at how we got into the mess we were facing and are trying to 
resolve. And I think there is an important conversation I tried 
to hint at it, and I don't want to take you into the arcane 
weeds of Islamic theology, but Saudi Salafism and Islamic State 
jihadism both go back to the medieval Islamic thinker, Ibn 
Taymiyyah. They split on the concept of jihad. For the 
Salafists, it is defensive, for Islamic State it is offensive. 
But the point is, jihadism, as practiced by Islamic State is an 
offshoot, if you will, of mainstream Salafism. So how is Saudi 
Arabia going to deal with that? You know, it is the kind of 
discussion I don't think we often have with them, but we need 
to have it. Because eventually, as we saw in the 2003 
timeframe, you know, it comes home. The ultimate goal of 
Islamic State is to center the caliphate on the holy cities of 
Mecca and Medina. That is what they are all about.
    So, in the process of shoring up a region, relying on our 
traditional relationships, we need to have that conversation. 
But I would not, at this stage, certainly suggest that we give 
them an ``or else,'' because the relationship is as frayed as I 
have seen it, frankly. Of all the disturbing things I have seen 
over this last year, one of the most disturbing is something 
little remarked. And that is the fact the Saudis decided to 
launch an air campaign into Yemen without consulting with us.
    Mr. O'Rourke. And yet we are helping them, without going 
into specifics. I mean, there is some cooperation there. And I 
am out of time. I appreciate the chairman's indulgence. Thank 
you for your answers. I appreciate it.
    The Chairman. Thank you. Mr. Ashford.
    Mr. Ashford. Thank you, Mr. Chairman. I just have one 
clarification question I would like to ask on refugees. I 
absolutely agree with you that the leadership role in this area 
is critical, and it is part of the entire strategy, is to deal 
with refugees and deal with the other things we have talked 
about. But what troubled me after, and you mentioned, you know, 
the Friday the 13th changed, Mr. McLaughlin mentioned it, 
changed the dynamics considerably. Is it not reasonable to at 
least make certain that as we bring these refugees into the 
country, that there be some effort put towards making sure that 
the validation process is in place, that we are thinking about 
these various things that are into why someone is radicalized 
and that sort of thing? Is that not reasonable, Ambassador?
    Ambassador Crocker. It is not only absolutely reasonable, 
it is an obligation. The security of our Nation has to be 
uppermost. And clearly, Congress has a role in determining that 
the measures, the checks, the screening is adequate to assure 
us of that. You are not going to get it to 100 percent, but to 
a reasonable degree. I know a fair amount about the vetting 
process. I helped develop it when I was in Iraq, and we were 
trying to get Iraqis out of harm's way that had worked for us. 
I personally think it is adequate.
    Obviously, Members of Congress are going to have to satisfy 
themselves that that is the case. It is clearly a set of 
questions that can be asked. And maybe it needs to be tweaked. 
I don't know. But that is important. I think it can be done, I 
think it is being done. So I would hope that we could move 
forward for the reasons we have cited. This is not only an 
important humanitarian step, it is important politically for 
the reasons we have adduced.
    Mr. Ashford. I appreciate it. Thank you, Mr. Ambassador. 
Thank you, Mr. Chairman.
    The Chairman. Thank you. I am going to try you all's 
patience for just a moment more, if you will allow me, and 
circle back around with a couple things we have talked about. 
But just to try to pin you down maybe, for lack of a better 
expression. Mr. Ambassador, talking about trying to help the 
Iraqi Government become more inclusive, we have a provision in 
this year's defense bill, which hopefully is about to be signed 
into law by the President, that allows him to directly arm the 
Kurds and the Sunni tribes if they cannot certify that the 
Iraqi Government in Baghdad is inclusive. I mean, obviously, 
the purpose of that is to push them to be more inclusive out of 
fear that the Kurds and the Sunni tribes would directly receive 
arms from us. But I guess my question for you is, as you watch 
these things, do you think it is still possible for there to be 
an Iraqi Government that is inclusive of the Sunnis and others 
or have we gone too far with Iranian influence?
    Ambassador Crocker. It is a critical question, Mr. 
Chairman. And I don't know the answer, which is why I said at 
the outset that we have three failed states, and Iraq teeters. 
What I do strongly believe is we need to find the answer to 
that question by engaging.
    The Chairman. The only way to know is to try.
    Ambassador Crocker. The only way to know is to try at a 
high level and over a period of time, which is why I keep 
urging that we do that.
    The Chairman. Okay. Fair point. Mr. McLaughlin, I want to 
go back to the catch-22 that you talked about at the beginning, 
because it seems to me we are already having some de-
confliction with the Russians. Some will see that as working 
with the Russians, which is working with the Iranians, and 
working to keep Assad. In any event, removing Assad is a lesser 
priority. And anything we do along that line and still go after 
ISIS, does that not fuel the perception that we are more anti-
Sunni and willing to work with the Shia in that endeavor? I 
mean, I am perplexed by this catch-22 also. Assad, ISIS, Sunni, 
Shia, you go after one versus the other, the other benefits.
    Mr. McLaughlin. Well, acknowledging, again, that it is hard 
to sequence something this complicated. It just seems to me 
that you have to set priorities. And you have to say, in these 
circumstances, it is more important for us right now to degrade 
ISIS, and not to give up the idea of getting rid of Assad. 
Because the dilemma here is you cannot have--I can't imagine a 
political solution that preserves Syria and brings in the 70 
percent of Syrians who are Sunni if Assad is there. So that is 
the dilemma. But given what we have in front of us in terms of 
realities, I don't see how we do both at the same time. And I 
assume that is why Secretary Kerry is saying--has said a number 
of times now, and I believe the Russians have also--you can 
read this between the lines--have said, Secretary Kerry has 
said Assad doesn't have to go right away. So you look at the 
Vienna talks, and it appears that the communiques that have 
been signed indicate that we have a 6-month period in which we 
try to figure out how do we get to that point of a transitional 
government, or a temporary government, and then an 18-month 
period during which time a new constitution is written and 
elections occur.
    I am sure this is a fragile agreement. I am sure it is just 
barely hanging by a thread. But I think the table is set for 
something that ultimately moves Assad out, with the priority 
being to get to a point with ISIS first where we have some 
confidence that that part of the equation is under control. 
That is how I am seeing it.
    The Chairman. Okay. Fair point. We have a late entrant for 
a brief question. Mr. Lamborn.
    Mr. Lamborn. Thank you for indulging my last question here. 
Thank you for your service, both of you, very distinguished 
careers serving our country in various ways. I appreciate that. 
And maybe you have already addressed this. I have been in and 
out with other committees going on and so on. But I want to ask 
about the tilt by this administration toward Iran. I asked John 
Kerry this one time. He denied that there was any tilt toward 
Iran. And yet all of our Gulf State Arab partners, allies, 
friends, the Israelis, they are convinced that there is such a 
tilt.
    So, even if it is not reality, it is perception at least. I 
think it is reality. Can you comment on that? Has there been a 
tilt? And if so, shouldn't the administration just come out and 
say that and that they want to see Iran become a regional 
player and welcomed back into the community of nations and be a 
good guy even though there is no evidence that they are going 
to actually pull that off? I am just very, very concerned about 
this direction. It seems like a huge gamble to me. But am I 
reading this wrong? Or is there actually a tilt going on toward 
Iran?
    Ambassador Crocker. It is a very important question. I do 
not perceive a significant tilt by us toward Iran. But 
perception is reality. And nowhere is that more the case than 
the Middle East. And there is a perception that there is such a 
tilt, which is why I have emphasized in my written testimony, 
in my remarks today, we have got to make it absolutely clear 
that our goals and Iran's goals in the region could not be more 
opposite. That the nuclear agreement in no way implies that we 
are a party to Iran's nefarious policies and actions throughout 
the region. It is 20 years ago this month that a great world 
leader was assassinated, Yitzhak Rabin.
    Before he was killed, he said something that I have always 
remembered. And it was about--it was the time he was 
negotiating with the Palestinians post-Oslo. He said, ``I will 
negotiate peace as though there were no terrorism, and I will 
fight terrorism as though there were no peace negotiations.'' 
Well, we need to fight Iranian-backed terrorism as though there 
were no nuclear agreement. Because that is what the Iranians 
are doing. They didn't let that agreement, which they wanted, 
get in the way of all the nefarious things they are doing in 
Syria and Iraq, and, to a degree, in Yemen. Well, we need to 
meet them with the same determination to confront them where 
they are acting as a very malign player.
    You know, that doesn't jeopardize the agreement because it 
doesn't jeopardize the agreement for them as they carry out 
these malign actions. But I feel very strongly we have got to 
assert ourselves against them, both because of the damage they 
are doing, but also because of the perception in the eyes of 
our Sunni friends.
    Mr. Lamborn. Director McLaughlin.
    Mr. McLaughlin. I don't disagree with anything the 
ambassador said. The only thing I would add is I don't think 
there has been a tilt toward Iran, perceptions aside. Without 
knowing precisely what is discussed within the administration, 
though, I think there is a hope that somehow in this 15-year 
period that we buy with the nuclear agreement, there is a hope, 
I am assuming, that there will be some kind of transformation 
inside Iran. There were some bits of data you can seize upon to 
strengthen that hope. Generally pro-American views of the man 
on the street, the large numbers of women, 40 percent of their 
university graduates are women. A lot of things about Iran that 
are at odds with the behavior we see on the part of their 
government. I suspect there is a hope among those who work on 
Iran that they may change. But 15 years is not a long time.
    Mr. Lamborn. In this recent intercontinental ballistic 
missile test in violation of U.N. protocols, isn't that a big 
concern to us?
    Mr. McLaughlin. Well, as I viewed their behavior since the 
nuclear agreement, I haven't seen anything that strengthens my 
hope that they will change. I think the ambassador has it 
right. Until we see something fundamentally different about 
them, we have to do exactly as Yitzhak Rabin advised.
    Mr. Lamborn. Thank you so much.
    The Chairman. Thank you. And to both of you, thank you, 
again, for all of your expertise and guidance in very difficult 
matters, and for your time here today. With that, the hearing 
stands adjourned.
    [Whereupon, at 3:43 p.m., the committee was adjourned.]



      
=======================================================================


                            A P P E N D I X

                           November 18, 2015

=======================================================================



              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           November 18, 2015

=======================================================================

      

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
      
      
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           November 18, 2015

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. JOHNSON

    Mr. Johnson. We must have a plan in place that addresses the 
systemic grievances of disenfranchised Sunni populations in Iraq and 
Syria, whose grievances with the Damascus and Baghdad governments have 
directly contributed to the rise of the Islamic State of Iraq and Syria 
(ISIS). Without confronting these grievances, this region will remain 
susceptible to further radicalization in the future. As you have 
discussed in your testimony, the rise of ISIS in Syria and Iraq seems 
to be fueled in part by the grievances of Syria's Sunni majority and 
Iraq's Sunni minority against their respective Alawite and Shia 
controlled governments. With that in mind, how can we realistically 
address those grievances while preserving the 1916 borders created by 
European colonial powers after World War I?
    Ambassador Crocker. [No answer was available at the time of 
printing.]
    Mr. Johnson. In the effort to garner sustained buy-in from the 
Sunni communities in the region, how can the lessons from our 
collaboration in the Anbar Awakening in 2006 and 2007 be applied today?
    Ambassador Crocker. [No answer was available at the time of 
printing.]
    Mr. Johnson. Any new plans moving forward must incorporate the 
interests of the wide variety of stakeholders in the region in order to 
be sustainable in the long run. Given that it appears for the first 
time since World War II that United States, our NATO allies, and Russia 
are contemplating military action against a common enemy, what are we 
doing or can be done to ensure any Russian action does not detract from 
our aims and our allies in a post-ISIS Syria and Iraq but rather 
complement our own objectives?
    Mr. McLaughlin. [No answer was available at the time of printing.]

                                  [all]
</pre></body></html>
